Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL


   CALIFORNIA IMPROPERLY
 CLAIMED ENHANCED FEDERAL
REIMBURSEMENT FOR MEDICAID
 FAMILY PLANNING DRUGS AND
    SUPPLIES PROVIDED IN
     SAN DIEGO COUNTY


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Lori A. Ahlstrand
                                               Regional Inspector General

                                                        June 2013
                                                      A-09-12-02077
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY

 California claimed $627,000 in unallowable enhanced Federal reimbursement over
 2 years for Medicaid family planning drugs and supplies provided in San Diego County.

WHY WE DID THIS REVIEW

Family planning services prevent or delay pregnancy or otherwise control family size. Federal
law and regulations authorize Federal Medicaid reimbursement to States for family planning
services at an enhanced Federal medical assistance percentage (FMAP) of 90 percent (90-percent
rate). Previous Office of Inspector General reviews found that States improperly claimed
reimbursement at the 90-percent rate for services that were eligible only for the regular FMAP or
were ineligible for Federal reimbursement. One of those reviews found that the California
Department of Health Care Services (State agency) claimed approximately $5.7 million in
unallowable Federal reimbursement for family planning services provided under the Family
Planning, Access, Care, and Treatment (FPACT) program in San Diego County. That review did
not include claims for family planning drugs and supplies.

The objective of this review was to determine whether the State agency complied with certain
Federal and State requirements when claiming Federal reimbursement at the 90-percent rate for
family planning drugs and supplies provided under the FPACT program in San Diego County.

BACKGROUND

In California, the State agency administers the Medicaid program. The State agency’s FPACT
program, a demonstration project (waiver) under section 1115 of the Social Security Act, extends
Medicaid eligibility for family planning services, including drugs and supplies, to individuals of
childbearing age who reside in California and have incomes up to 200 percent of the Federal
poverty level. Individuals eligible for the FPACT program are generally not otherwise eligible
for Medicaid.

The section 1115 waiver for the FPACT program states that Federal reimbursement is available
at the 90-percent rate for services, including drugs and supplies, whose primary purpose is family
planning and that are provided in a family planning setting. Federal reimbursement is available
at the regular FMAP (61.59 percent during our audit period) for treatment services provided
ancillary to a family planning service, such as treatment of a complication, and that carry a
diagnosis code indicating that they are related to a family planning service. The Centers for
Medicare & Medicaid Services approved a list of procedure codes eligible for reimbursement
under the FPACT program and applicable Federal reimbursement rates.

HOW WE CONDUCTED THIS REVIEW

From October 1, 2008, through September 30, 2010, the State agency claimed approximately
$38 million ($28.1 million Federal share) for family planning drugs and supplies provided to
FPACT clients in San Diego County, representing 618,980 claim lines. (A claim line
represented an individual drug or supply billed as part of a claim for an FPACT client.) We did


Medicaid Family Planning Drugs and Supplies in San Diego County, California (A-09-12-02077)       i
not review 293,259 claim lines, totaling $17.5 million, for drugs and supplies considered to be at
low risk of being unallowable and for reimbursements determined to be immaterial. We
reviewed a simple random sample from the remaining 325,721 claim lines, totaling
$20.5 million.

WHAT WE FOUND

The State agency did not always comply with certain Federal and State requirements when
claiming Federal reimbursement at the 90-percent rate for family planning drugs and supplies
provided under the FPACT program in San Diego County. Of the 100 sampled claim lines,
83 complied and 17 did not comply with requirements. Of the 17 claim lines, 10 were ineligible
for reimbursement because the primary purpose of the drugs or supplies was not family planning,
6 were ineligible for reimbursement because of insufficient documentation, and 1 was eligible
for reimbursement only at the regular FMAP because the drug was provided for treatment of a
complication. On the basis of our sample results, we estimated that the State agency claimed
$627,053 in unallowable Federal reimbursement.

The overpayment occurred because the State agency did not have billing procedures to ensure
that it claimed reimbursement at the 90-percent rate only for drugs and supplies whose primary
purpose was family planning. Also, the State agency’s Medicaid Management Information
System (MMIS) lacked edits to ensure that family planning claims met Federal and State
requirements for reimbursement at the 90-percent rate.

WHAT WE RECOMMEND

We recommend that the State agency:

    •   refund $627,053 to the Federal Government,

    •   establish billing procedures to ensure that only drugs and supplies whose primary purpose
        is family planning are claimed for reimbursement at the 90-percent rate, and

    •   establish MMIS edits to ensure that family planning claims meet Federal and State
        requirements for reimbursement at the 90-percent rate.

STATE AGENCY COMMENTS AND OUR RESPONSE

In written comments on our draft report, the State agency agreed with our overall finding that it
did not always comply with certain Federal and State requirements when claiming Federal
reimbursement at the 90-percent rate for family planning drugs and supplies. The State agency
also agreed with our first and second recommendations and provided information on actions that
it had taken or planned to take to address our recommendations. However, the State agency
disagreed with part of the draft report’s third recommendation. We revised our finding to clarify
that the State agency’s lack of MMIS edits applied to all claim lines that did not comply with
Federal and State requirements and revised our recommendation accordingly.




Medicaid Family Planning Drugs and Supplies in San Diego County, California (A-09-12-02077)      ii
                                                     TABLE OF CONTENTS


INTRODUCTION ..................................................................................................................... 1

           Why We Did This Review ............................................................................................. 1

           Objective ........................................................................................................................ 1

           Background .................................................................................................................... 1
                 Medicaid Program .............................................................................................. 1
                 Medicaid Coverage of Family Planning Services .............................................. 1
                 California’s Medicaid Family Planning Program .............................................. 2
                 State Requirements for the Family Planning Program ...................................... 2

           How We Conducted This Review.................................................................................. 3

FINDINGS ................................................................................................................................. 3

           Federal and State Requirements..................................................................................... 4

           Drugs and Supplies Were Improperly Claimed Because Their Primary
            Purpose Was Not Family Planning or Documentation Was Insufficient ................... 4

RECOMMENDATIONS ........................................................................................................... 5

STATE AGENCY COMMENTS AND
 OFFICE OF INSPECTOR GENERAL RESPONSE ............................................................. 5

APPENDIXES

           A: Audit Scope and Methodology ................................................................................ 7

           B: Statistical Sampling Methodology ........................................................................... 9

           C: Sample Results and Estimates .................................................................................. 11

           D: Related Office of Inspector General Reports ........................................................... 12

           E: State Agency Comments .......................................................................................... 13




Medicaid Family Planning Drugs and Supplies in San Diego County, California (A-09-12-02077)                                                       iii
                                           INTRODUCTION

WHY WE DID THIS REVIEW

Family planning services prevent or delay pregnancy or otherwise control family size. Federal
law and regulations authorize Federal Medicaid reimbursement to States for family planning
services at an enhanced Federal medical assistance percentage (FMAP) of 90 percent (90-percent
rate). Previous Office of Inspector General (OIG) reviews found that States improperly claimed
reimbursement at the 90-percent rate for services that were eligible only for the regular FMAP or
were ineligible for Federal reimbursement. One of those reviews found that the California
Department of Health Care Services (State agency) claimed approximately $5.7 million in
unallowable Federal reimbursement for family planning services provided under the Family
Planning, Access, Care, and Treatment (FPACT) program in San Diego County. 1 That review
did not include claims for family planning drugs and supplies.

OBJECTIVE

Our objective was to determine whether the State agency complied with certain Federal and State
requirements when claiming Federal reimbursement at the 90-percent rate for family planning
drugs and supplies provided under the FPACT program in San Diego County.

BACKGROUND

Medicaid Program

The Medicaid program provides medical assistance to low-income individuals and individuals
with disabilities. The Federal and State Governments jointly fund and administer the Medicaid
program. At the Federal level, the Centers for Medicare & Medicaid Services (CMS)
administers the program. Each State administers its Medicaid program in accordance with a
CMS-approved State plan. Although the State has considerable flexibility in designing and
operating its Medicaid program, it must comply with applicable Federal requirements.
Section 1115 of the Social Security Act (the Act) authorizes demonstration projects (waiver) to
assist in promoting the objectives of the Medicaid program.

Medicaid Coverage of Family Planning Services

According to section 1905(a)(4)(C) of the Act, States are required to furnish family planning
services and supplies to individuals of childbearing age who are eligible under the State plan and
desire such services and supplies. Section 1903(a)(5) of the Act and Federal regulations
(42 CFR § 433.10(c)(1)) authorize Federal reimbursement for family planning services at the
90-percent rate.

Section 4270 of the CMS State Medicaid Manual (the Manual) states that family planning
services include those that prevent or delay pregnancy or otherwise control family size and may

1
 California Improperly Claimed Enhanced Federal Reimbursement for Medicaid Family Planning Services
Provided in San Diego County, A-09-11-02040, issued December 20, 2012.


Medicaid Family Planning Drugs and Supplies in San Diego County, California (A-09-12-02077)           1
also include infertility treatments. The Manual indicates that States are free to determine which
services and supplies will be covered as long as those services are sufficient in amount, duration,
and scope to reasonably achieve their purpose. However, only services and supplies clearly
furnished for family planning purposes may be claimed for Federal reimbursement at the
90-percent rate.

California’s Medicaid Family Planning Program

In California, the State agency administers the Medicaid program. The State agency’s FPACT
program, a section 1115 waiver, extends Medicaid eligibility for family planning services,
including drugs and supplies, to individuals of childbearing age who reside in California and
have incomes up to 200 percent of the Federal poverty level. Individuals eligible for the FPACT
program are generally not otherwise eligible for Medicaid.

The State agency uses the Medicaid Management Information System (MMIS), a computerized
payment and information reporting system, to process Medicaid claims for payment. The
expenditures related to the claims are reported on the Form CMS-64, Quarterly Medicaid
Statement of Expenditures for the Medical Assistance Program, for Federal reimbursement.
During our audit period, the regular FMAP for California was 61.59 percent.

State Requirements for the Family Planning Program

CMS approved the section 1115 waiver for the FPACT program effective December 1, 1999.
The waiver period ended November 30, 2004, and operated on monthly extensions until family
planning services were incorporated into the State plan through State Plan Amendment 10-014,
effective July 1, 2010.

Section 6 of the Special Terms and Conditions of the section 1115 waiver for the FPACT
program (Special Terms and Conditions) states that Federal reimbursement is available at the
90-percent rate for services, including drugs and supplies, whose primary purpose is family
planning and that are provided in a family planning setting. Federal reimbursement is available
at the regular FMAP for treatment services that are provided ancillary to a family planning
service, such as treatment of a complication, and that carry a diagnosis code indicating that they
are related to a family planning service. According to the State agency’s Family PACT Policies,
Procedures, and Billing Instructions Manual, the FPACT program requires family planning
providers to bill for services using special diagnosis codes, called S-codes. The S-code is based
on the family planning method selected by the FPACT client, such as oral contraceptive,
contraceptive injection, or barrier method.

In accordance with the Special Terms and Conditions, CMS approved a list of procedure codes
eligible for reimbursement under the FPACT program and their applicable Federal
reimbursement rates. 2 To account for clients who receive family planning services but are not



2
    CMS approved the original list on February 28, 2000, and an updated version on November 21, 2006.



Medicaid Family Planning Drugs and Supplies in San Diego County, California (A-09-12-02077)             2
eligible for public benefits under Federal law, 3 such as nonqualified aliens, the State agency
deducts a CMS-approved percentage from total FPACT expenditures for the applicable period
before claiming reimbursement at the 90-percent rate (in accordance with section 24 of the
Special Terms and Conditions). This percentage ranged from 13.95 percent to 24 percent during
our audit period.

HOW WE CONDUCTED THIS REVIEW

From October 1, 2008, through September 30, 2010, the State agency claimed approximately
$38 million ($28.1 million Federal share) for family planning drugs and supplies provided to
FPACT clients in San Diego County, representing 618,980 claim lines. (A claim line
represented an individual drug or supply billed as part of a claim for an FPACT client.) We did
not review 293,259 claim lines, totaling $17.5 million, for drugs and supplies considered to be at
low risk of being unallowable and for reimbursements determined to be immaterial. We
reviewed a simple random sample from the remaining 325,721 claim lines, totaling
$20.5 million.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A describes our audit scope and methodology, Appendix B describes our statistical
sampling methodology, and Appendix C describes our sample results and estimates.
Appendix D contains a list of related OIG reports on States’ claims for family planning services,
including drugs and supplies.

                                                 FINDINGS

The State agency did not always comply with certain Federal and State requirements when
claiming Federal reimbursement at the 90-percent rate for family planning drugs and supplies
provided under the FPACT program in San Diego County. Of the 100 sampled claim lines,
83 complied and 17 did not comply with requirements. Of the 17 claim lines, 10 were ineligible
for reimbursement because the primary purpose of the drugs or supplies was not family planning,
6 were ineligible for reimbursement because of insufficient documentation, and 1 was eligible
for reimbursement only at the regular FMAP because the drug was provided for treatment of a
complication. On the basis of our sample results, we estimated that the State agency claimed
$627,053 in unallowable Federal reimbursement.

The overpayment occurred because the State agency did not have billing procedures to ensure
that it claimed reimbursement at the 90-percent rate only for drugs and supplies whose primary



3
 The Personal Responsibility and Work Opportunity Reconciliation Act of 1996 defines citizenship requirements
for Federal public benefits.


Medicaid Family Planning Drugs and Supplies in San Diego County, California (A-09-12-02077)                     3
purpose was family planning. Also, the State agency’s MMIS lacked edits to ensure that family
planning claims met Federal and State requirements for reimbursement at the 90-percent rate.

FEDERAL AND STATE REQUIREMENTS

According to section 1902(a)(27) of the Act, providers must keep records as necessary to
disclose the extent of the service provided to individuals receiving assistance. Providers must
provide these records to the State agency or the Secretary of Health and Human Services upon
request.

The Manual, section 4270.B, states that only services and supplies clearly furnished for family
planning purposes may be claimed for Federal reimbursement at the 90-percent rate.

According to section 6.b of the Special Terms and Conditions, Federal reimbursement is
available at the regular FMAP for treatment services that are provided ancillary to a family
planning service, such as treatment of a complication, and that carry a diagnosis code indicating
that they are related to a family planning service. In accordance with the section 6.e of the
Special Terms and Conditions, CMS approved a list of procedure codes under the FPACT
program and their applicable Federal reimbursement rates.

DRUGS AND SUPPLIES WERE IMPROPERLY CLAIMED BECAUSE THEIR
PRIMARY PURPOSE WAS NOT FAMILY PLANNING OR DOCUMENTATION
WAS INSUFFICIENT

On the basis of our review of client medical records for 100 sampled claim lines, we found that
the State agency did not comply with Federal and State requirements for family planning drugs
and supplies for 17 claim lines:

    •   For 10 claim lines, the primary purpose of the drugs or supplies was not family planning.
        Of these claim lines, seven were for contraceptive supplies (for protection against
        sexually transmitted infections) provided during visits for testing or treatment of sexually
        transmitted infections. The remaining three claim lines were for oral contraceptive drugs
        provided to treat a medical condition, such as severe premenstrual symptoms and acne.
        Because no family planning services were provided during the visits, these claim lines
        were not eligible for Federal reimbursement. The State agency did not have billing
        procedures to ensure that it claimed reimbursement at the 90-percent rate only for drugs
        and supplies whose primary purpose was family planning. Specifically, the State agency
        required providers to use S-codes, which allowed drugs and supplies provided for
        purposes other than family planning to be incorrectly claimed as family planning. The
        S-code is based on the family planning method selected by the FPACT client, not the
        purpose of the visit.

    •   For six claim lines, there was insufficient documentation. For three of these claim lines,
        the providers billed for contraceptive supplies, but there was no documentation showing
        that contraceptive supplies had been dispensed. For two claim lines, there was nothing in
        the medical records to support prescriptions for oral contraceptive drugs. For one claim



Medicaid Family Planning Drugs and Supplies in San Diego County, California (A-09-12-02077)         4
        line, the provider was unable to locate the medical record. These claim lines were not
        eligible for Federal reimbursement.

    •   For one claim line, the drug dispensed was provided to treat a complication caused by the
        client’s birth control method. Because this drug was provided ancillary to a family
        planning service, this claim line was eligible for Federal reimbursement only at the
        regular FMAP. The amount that we disallowed was the difference between
        reimbursement at the 90-percent rate and reimbursement at the regular FMAP.

The State agency’s MMIS lacked edits to ensure that family planning claims met Federal and
State requirements for reimbursement at the 90-percent rate.

During our audit, State medical professionals performed a medical review of the 17 claim lines
that we determined did not comply with Federal and State requirements. The medical
professionals concurred with our findings.

On the basis of our sample results, we estimated that the State agency claimed $627,053 in
unallowable Federal reimbursement.

                                       RECOMMENDATIONS

We recommend that the State agency:

    •   refund $627,053 to the Federal Government,

    •   establish billing procedures to ensure that only drugs and supplies whose primary purpose
        is family planning are claimed for reimbursement at the 90-percent rate, and

    •   establish MMIS edits to ensure that family planning claims meet Federal and State
        requirements for reimbursement at the 90-percent rate.

                            STATE AGENCY COMMENTS AND
                       OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the State agency agreed with our overall finding that it
did not always comply with certain Federal and State requirements when claiming Federal
reimbursement at the 90-percent rate for family planning drugs and supplies. The State agency
also agreed with our first and second recommendations and provided information on actions that
it had taken or planned to take to address our recommendations.

However, the State agency disagreed with part of the draft report’s third recommendation. The
State agency commented that it had established MMIS edits to ensure that drugs related to
treatments for complications are claimed at the regular FMAP, except for oral contraceptives.
For the one claim line reviewed, an oral contraceptive was provided to treat a complication and
was claimed at the 90-percent rate instead of the regular FMAP. The State agency commented
that it “feel[s] this is more of a provider education issue than a system issue” and that it may be a


Medicaid Family Planning Drugs and Supplies in San Diego County, California (A-09-12-02077)         5
rare occurrence. The State agency also commented that it will revise its guidance to address the
issue. The State agency’s comments are included in their entirety as Appendix E.

We revised our finding to clarify that the State agency’s lack of MMIS edits applied to all claim
lines that did not comply with Federal and State requirements and revised our recommendation
accordingly.




Medicaid Family Planning Drugs and Supplies in San Diego County, California (A-09-12-02077)         6
                   APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

From October 1, 2008, through September 30, 2010, the State agency claimed $37,985,652
($28,121,135 Federal share) for family planning drugs and supplies provided to FPACT clients
in San Diego County, representing 618,980 claim lines. We did not review 293,259 claim lines,
totaling $17,480,055, for drugs and supplies considered to be at low risk of being unallowable
and for reimbursements determined to be immaterial. We reviewed a simple random sample
from the remaining 325,721 claim lines, totaling $20,505,597 ($15,170,337 Federal share).

We did not review the overall internal control structure of the State agency or the Medicaid
program. Rather, we reviewed only those internal controls related to our objective. We limited
our review to determining whether the drugs and supplies provided to FPACT clients were
eligible for Federal reimbursement at the 90-percent rate. We did not determine whether the
clients met the eligibility requirements of the FPACT program.

We conducted our audit from August 2012 to January 2013 and performed our fieldwork at the
State agency’s office in Sacramento, California, and at provider locations in San Diego County.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed Federal and State laws, regulations, and guidance and the State plan;

    •   reviewed the Special Terms and Conditions of the section 1115 waiver for the FPACT
        program;

    •   held discussions with CMS officials to gain an understanding of CMS guidance furnished
        to State agency officials concerning Medicaid family planning claims;

    •   held discussions with State agency officials to gain an understanding of State policies and
        controls for claiming Federal reimbursement for family planning services, including
        drugs and supplies;

    •   obtained family planning claim data from the State agency’s MMIS for the audit period,
        representing 618,980 claim lines totaling $37,985,652 ($28,121,135 Federal share) for
        drugs and supplies;

    •   did not review 293,259 claim lines totaling $17,480,055, consisting of 234,420 claim
        lines for drugs and supplies considered to be at low risk of being unallowable and 58,839
        claim lines for reimbursements that we determined to be immaterial; and

    •   reviewed a simple random sample selected from the remaining 325,721 claim lines,
        totaling $20,505,597.


Medicaid Family Planning Drugs and Supplies in San Diego County, California (A-09-12-02077)       7
We selected from the sampling frame a simple random sample of 100 claim lines to determine
whether family planning drugs and supplies complied with certain Federal and State
requirements by (1) contacting providers to obtain medical record information for each sampled
item, (2) reviewing the written physician notes to determine the primary purpose of the drug or
supply provided, and (3) discussing with State medical professionals those sample items that we
determined were unallowable for enhanced Federal reimbursement. We then estimated the
unallowable Federal reimbursement paid in the sampling frame. (See Appendix B for the details
of our statistical sampling methodology and Appendix C for our sample results and estimates.)

To determine the State agency’s Federal share, we reduced the total amount claimed by the
CMS-approved deduction percentages (for clients who receive family planning services but are
not eligible for public benefits under Federal law) and then applied the 90-percent rate.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Medicaid Family Planning Drugs and Supplies in San Diego County, California (A-09-12-02077)    8
               APPENDIX B: STATISTICAL SAMPLING METHODOLOGY

POPULATION

The population of claims consisted of 618,980 claim lines totaling $37,985,652 for Medicaid
family planning drugs and supplies provided under the FPACT program in San Diego County
from October 1, 2008, through September 30, 2010, for which the State agency claimed Federal
reimbursement at the 90-percent rate.

SAMPLING FRAME

From the population of claims, we removed claim lines for drugs and supplies considered to be
at low risk of being unallowable, such as contraceptive patches, rings, and injections. We
established a materiality level of $5.00 or more per claim line and removed claim lines that had a
reimbursement of less than this amount. The table summarizes the number of claim lines
excluded from the sampling frame and their total amounts.

                        Claim Lines Excluded From the Sampling Frame

                                                            No. of Claim
             Excluded Claim Lines                              Lines           Claimed Amount
Low-risk drugs and supplies                                    234,420           $17,285,073
Reimbursement less than $5.00                                    58,839              194,982
   Total                                                       293,259           $17,480,055

After removing these claim lines, the sampling frame consisted of 325,721 claim lines totaling
$20,505,597.

SAMPLE UNIT

The sample unit was an individual Medicaid claim line for an oral contraceptive drug or a
contraceptive supply provided to an FPACT client.

SAMPLE DESIGN

We used a simple random sample to test the claim lines for allowability.

SAMPLE SIZE

We selected a sample of 100 claim lines for family planning drugs and supplies.

SOURCE OF RANDOM NUMBERS

We generated the random numbers with the OIG, Office of Audit Services (OAS), statistical
software.




Medicaid Family Planning Drugs and Supplies in San Diego County, California (A-09-12-02077)      9
METHOD FOR SELECTING SAMPLE UNITS

We consecutively numbered the sample units in the frame from 1 to 325,721. After generating
100 random numbers, we selected the corresponding frame items.

ESTIMATION METHODOLOGY

We used the OIG/OAS statistical software to estimate the unallowable Federal reimbursement
paid.




Medicaid Family Planning Drugs and Supplies in San Diego County, California (A-09-12-02077)   10
                    APPENDIX C: SAMPLE RESULTS AND ESTIMATES

                                   Sample Results: Total Amounts

       No. of Claim
         Lines in    Value of                                           No. of    Value of
        Sampling     Sampling Sample                  Value of       Unallowable Unallowable
         Frame        Frame     Size                  Sample         Claim Lines Claim Lines
         325,721    $20,505,597 100                    $5,928             17        $832


                             Sample Results: Federal Share Amounts

       No. of Claim
         Lines in         Value of                                      No. of    Value of
        Sampling          Sampling Sample              Value of      Unallowable Unallowable
         Frame             Frame     Size              Sample        Claim Lines Claim Lines
         325,721         $15,170,337 100                $4,377            17         $613


                             Estimated Value of Unallowable Claims
                     (Limits Calculated for a 90-Percent Confidence Interval)

                                           Total Amount             Federal Share
                    Point estimate           $2,710,943               $1,997,289
                    Lower limit                  872,425                 627,053
                    Upper limit               4,549,461                3,367,524




Medicaid Family Planning Drugs and Supplies in San Diego County, California (A-09-12-02077)    11
       APPENDIX D: RELATED OFFICE OF INSPECTOR GENERAL REPORTS

                                                                              Report            Date
                        Report Title                                         Number            Issued
California Improperly Claimed Enhanced Federal                            A-09-11-02040       12/20/12
Reimbursement for Medicaid Family Planning Services
Provided in San Diego County

Wyoming Incorrectly Claimed Enhanced Reimbursement for                    A-07-11-01100       08/17/12
Medicaid Family Planning Sterilization Costs

North Carolina Incorrectly Claimed Enhanced Federal                       A-04-10-01091       06/15/12
Reimbursement for Some Medicaid Waiver Services That Were
Not Family Planning

North Carolina Incorrectly Claimed Enhanced Federal                       A-04-10-01089       06/15/12
Reimbursement for Some Medicaid Services That Were Not
Family Planning

Oregon Improperly Claimed Federal Reimbursement for         A-09-11-02010                     01/26/12
Medicaid Family Planning Services Provided Under the Family
Planning Expansion Project

Review of Prescribed Drug Costs in the Colorado Medicaid                  A-07-11-01095       10/17/11
Family Planning Program

Review of Costs for Inpatient Services in the Colorado                    A-07-11-01097       10/05/11
Medicaid Family Planning Program

Review of Medicaid Family Planning Services Claimed Under                 A-09-10-02043       06/29/11
the Oregon Health Plan During the Period October 1, 2006,
Through September 30, 2009

Review of Louisiana Medicaid Inpatient Hospital Family                    A-06-10-00076       05/20/11
Planning Services

Family Planning Services Claimed by Illinois From                         A-05-10-00053       03/18/11
October 1, 2007, Through September 30, 2009

Family Planning Services Claimed by Ohio From                             A-05-10-00035       03/11/11
October 1, 2007, Through September 30, 2009

Review of Family Planning Services Claimed by Washington                  A-09-09-00049       02/28/11
State During the Period October 1, 2005, Through
September 30, 2008



Medicaid Family Planning Drugs and Supplies in San Diego County, California (A-09-12-02077)       12
                             APPENDIX E: STATE AGENCY COMMENTS 



                                     State of California-Health and Human Services Agency
          ~HCS
                                    Department of Health Care Services

         • TOBY DOUGLAS
             DIRECTOR



                 APR 2 3 2013
                                                                                                                 EDMUND G. BROWN JR.
                                                                                                                     GOVERNOR




               Ms. Lori A. Ahlstrand
               Regional Inspector General for Audit Services
               Office of Audit Services, Region IX
               90 - J'hStreet, Suite 3-650
               San Francisco, CA 94103

               Dear Ms. Ahlstrand:

               The California Department of Health Care Services (DHCS) has prepared its response
               to the U.S. Department of Health and Human Services, Office of Inspector General,
               draft report entitled, "California Improperly Claimed Enhanced Federal Reimbursement
               for Medicaid Family Planning Drugs and Supplies Provided in San Diego County,"
               report number A-09-11-02077. DHCS appreciates the work performed by OIG and the
               opportunity to respond to the draft report.

               Please contact Ms. Melanie Pascua, Audit Coordinator, at (916) 445-2410 if you have
               any questions.

               Sincerely,



               ~
               Toby Douglas 

               Director 


               Enclosure

               cc:        See next page




                            1501 Capitol Avenue, Suite 71.6001, MS 0000 · P.O. 997413 · Sacramento, CA 95899-7413 

                                                      (916) 440-7400 • (916) 440-7404 FAX 

                                                        Internet address: www.dhcs.ca.gov 





.Medicaid Fconily Plcmning Drugs cmd Supplies in San Diego County, California (A-09-12-02077)                                          13
             Ms. Lori Ahlstrand
             Page 2




             cc: 	   Karen Johnson
                     Chief Deputy Director
                     Policy and Program Support
                     1501 Capitol Avenue, MS 0000
                     Sacramento, CA 95899-7413

                     Mari Cantwell 

                     Chief Deputy Director 

                     Health Care Programs 

                     1501 Capitol Avenue, MS 0000 

                     Sacramento, CA 95899-7413 


                     Rene Mellow 

                     Deputy Director 

                     Health Care Benefits & Eligibility 

                     1501 Capitol Avenue, MS 4000 · 

                     Sacramento, CA 95899-7413 


                     Christina Moreno 

                     Acting Chief 

                     Office of Family Planning 

                     1501 Capitol Avenue, MS 4000 

                     Sacramento, CA 95899-7413 


                     Vicky Sady
                     Deputy Director
                     Fiscal Intermediary Medicaid Management Information Systems
                     830 Stillwater, MS 4727
                     West Sacramento, CA 95605




.Medicaid Fconily Plcmning Drugs cmd Supplies in San Diego County, California (A-09-12-02077)   14
                            Department of Health Care Services Response to the 

                             Office of Inspector General's Draft Report Entitle d: 

                     California Improperly Claimed.Enhanced Federal Reimbursement 

              for Medicaid Family Planning Drugs and Supplies Provided in San Diego County 

                                          Report #A-09~12-02077


         Findin g #1: The State agency did not always comply with certain Federal .arid State       .   · ··       .·
         ~equi rements when claiming Fede.ral reimbursement at the 90-percent rate ·for family plan!ling .
         drugs and supplies provided unqer the Family Planning, Access , Car.e.,_and·rreatment (Family·: ·
         PACT)' program in San Diego County. As a result, the State agency· clai rried ,$627,053iJ:~    . •·   '   .....
         unallowable Federal reimbursement.                                             ·· ·

         Recommen~atiol'):    The State agency refund $627,053 to ·the Federal Government. ..

         Response : Department of Health Care Services (DHCS) agrees with the finding and
         recommendation.                                                 ·

         DHCS has reviewed the sampling methodology, sampling results , and estimates.· DHCS
         agrees with the recommendation . A memo to the Department's Accounting Office will be
         generated with instructions to make the appropriate accounting adjustments for the return of
         the unallowable federal reimbursement


         Finding #2: The State agency did not have billing procedures to ensure that it claimed
         reimbursement at the 90-percent rate only for drugs and supplies whose primary purpose was
         family planning.

         Recommendation : The State agency establish billing procedures to ensure that only drugs
         and suppl ies whose primary purpose is family planning are cla imed for reimbursement at the
         90-percent rate.

         Response: DHCS agrees with the finding and recommendation.

         The Family PACT program provides reproductive health services designed to support family
         planning methods for women and men, as gender appropriate by assisting individuals who
         have a medical necessity for fami ly planning services. Family planning method management
         is the main purpose of each visit. Secondarily, Family PACT services include assistance with
         related reproductive health conditions to achieve and maintain optimal reproductive health.
         Primary benefits are services relevant to the use of family planning methods and include
         specified reproductive health care screen ing tests. Secondary benefits provided by Family ·
         PACT are family planning-related services such as m edical diagnosis and treatment services
         that are provided pursuant to a family planning visit.

         The Office of Fam ily Planning (OFP) intends to launch a continuing educational program for
         Family PACT providers with the goal to educate providers on the purpose of the Family PACT
         program and what constitutes a family 'planning visit. The Family PACT program's Policies,

                                                   Page 1 of 3




.Medicaid Fconily Plcmning Drugs cmd Supplies in San Diego County, California (A-09-12-02077)                              15
            Procedures and Billing Instructions (PPBI) manual will be revised to add language and 

            examples regarding how providers should apply the standards and rules in their practices with 

            Family PACT clients. This on-going educational training will be disseminated via a variety of 

            forums, which include, but are not limited to, website postings, webinars, podcasts, and face-to 

            face seminars. Efforts to date:                       ·


             Continuing Educational Program for Family PACT'Providers                                           .. 

             Updates.to t!le .Family PACT. Pr.ogram Proyider.Orientatiof1 Training module emphasizes the. 

   .. ···    primary purpose .of the Fami ly PACT program. a~d               whaf            constitutes a family plann ing visit. The .
            ·updated trainirjg 'modul~. has b~en ifl"use ,~ir.tce Ma,y.20.12.anci will co_n t.ir:i'ue:to:be u.s ed:in ·: .
             upcoming . pro~id~r 9rient<;~tion s~9.s !6~$ . .. :· '..' : ..: 1., :-· • •: ·~: ;~ .       . • : '· < . ~ .: ·· • ·. . · ·


            The OFP disseminated information and reinforced the primary purpose of the· Family PACT
            program during,the March 2012 FamilyPAQJ ~tajsehol9ers' Meeting.

            Revisions to the Family PACT Program PPBI manual are being approved and projected to be
            in place by August 2013.

            The workgroups recommended implementing on-going educational training .for Family PACT
            providers via a variety of forums. Training will include updating the Fiscal Intermediary training
            modules. The trainings are projected to begin in August 2013

            Also, DHCS has reached out to the Center for Medicare and Medicaid Services' (CMS) for
            guidance and clarification on the distinction between family planning and family planning
            related services and the sequencing of such services . DHCS asked CMS to clarify and confirm
            the allowable Federal Financial Participation rate for family planning and family planning
            related services. Finally, DHCS requested CMS guidance for the family planning policies to
            ensure a clear understanding of federal requirements as they relate to the Family PACT
            program.

            System Conversion f rom S-diagnosis codes to ICD-9. codes
            The OFP is currently working on a system conversion to convert from t he current special
            diagnosis codes (S-Codes) to ICD-9 codes. This conversion to ICD-9 will implement -a system
            fix with hard edits to e nsure appropriate billing and claiming. Only codes associated with
            family planning visit will be paid at the appropriate FFP rate. This system conversion is
            expected to be fully implemented by December 3 1,2013.

            Implementation of periodic audits
            In addition to the proposeq corrective plan, periodic audits will be implemented to ensure that
            once corrective measures are established,' providers.are complying and following suit with the
            new requirements and policies. These State a!Jc;lit activ.ities may entail, depending on
            resources available, annual or semi-annual'audits of a sample of Family PACT providers . .As
            such, ·the progra~ can proactively detect and correct overpayment on an ongoing basis. OFP
            is in communication with DHCS, Audits and Investigation Division to develop a plan of action to
            conduct annual or semi-annual audits of a sample of Family PACT providers to ensure
            compliance with program criteria.



                                                                  Page 2 of3




.Medicaid Fconily Plcmning Drugs cmd Supplies in San Diego County, California (A-09-12-02077)                                              16
        Finding ·#3: The State agency's Medicaid Management Information System (MMIS) lacked 

        edits to prevent drugs related to treatments for complications from being claimed at the 90­
        percent rate. 


         Recommendation: The State agency establish MMIS edits to ensure that family planning . 

         claims meet Federal and State requirements for. reimbursement at the 90-percent. rate and·at 

       . the regular ·Federai medical ·assistance percentage (FMAP) for drugs related to treatments for·             ~·   ,. ·...
         complications. · .'   :·; :.'. . · · : . ·.· • ·                                            ·

        Response: DHci      di~~brees with the finding and recommendation.    ,- . :.-            :   ..   ~-   ,.



        .QHCS established .MMI$.edits to ensure that drugs related to treatments .for complications are . 

         claimed at the appropriate federal reimbursement rate. Drugs used to treat complications are · 

         at the regular FMAP with the exception of.oral.contraceptives, which are claimed at the 90- . . ·· 

         percent rate. There was one claim line reviewed in this audit where an oral contraceptive was . 

         provided to treat a complication of breakthrough bleeding caused by the client's birth control 

         method. Family PACT's PPBI indicates that Estradiol should be used for breakthrough 

         bleeding. Although the PPBI does not explicitly state that dispensing an oral contraceptive to 

         treat this complication is not allowed, we feel this is more of a provider education issue than a 

         system issue. This may be a rare occurrence hence our reluctance to agree to this finding. 

         The Family PACT program's PPBI manual will be revised to add language regarding the use of 

         Estradiol versus oral contraceptives for the treatment of the·complication of breakthrough 

         bleeding for Family PACT clients. 





                                                  Page 3 of3




Medicaid Fconily Planning Drugs andSupplies in San Diego County, California (A-09-12-02077)                                         17
